                               Report Template Update = 04-30-05_rev.12




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  CARRIER DETERMINATION OF 

        COPAYMENTS 

    FOR MEDICARE MENTAL 

      HEALTH SERVICES 





                    Daniel R. Levinson

                     Inspector General 


                      October 2006

                     OEI-09-04-00221

                                                           Report Template Update = 04-30-05_rev.12




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                               Report Template Update = 04-30-05_rev.12




Δ   E X E C U T I V E                                   S U M M A R Y                    



                  OBJECTIVE
                  To determine the extent to which Medicare carriers:

                       1.	 consistently calculate beneficiary copayments for mental health
                           services, and

                       2.	 correctly calculate copayments for mental health services rendered
                           to beneficiaries diagnosed with Alzheimer’s disease or related
                           disorders.


                  BACKGROUND
                  The Outpatient Mental Health Treatment Limitation
                  The “outpatient mental health treatment limitation” (the limitation)
                  reduces payments from Medicare’s Supplementary Medical Insurance
                  Benefits for the Aged and Disabled (Part B) to 62.5 percent of the
                  expenses (Medicare approved amount) for services in connection with
                  the treatment of mental disorders. Mental disorders that occur most
                  frequently for Medicare beneficiaries include affective psychoses,
                  senile psychotic conditions, schizophrenic disorders, and neurotic
                  disorders. Services include such things as psychotherapy, psychiatric
                  pharmacologic management, and evaluation and management.
                  Mental health services are typically rendered by psychiatrists, clinical
                  psychologists, licensed clinical social workers, nurse practitioners,
                  clinical nurse specialists, and physician assistants.

                  While the usual copayment for medical services is 20 percent, the
                  limitation commonly results in a copayment for the beneficiary of
                  50 percent of the approved amount (Medicare pays 80 percent of
                  62.5 percent of the approved amount). The limitation applies to services
                  that are furnished in connection with the treatment of a mental,
                  psychoneurotic, or personality disorder and either:
                  o	     furnished by physicians and other practitioners, whether
                         furnished directly or as incident to those practitioners’ services, or
                  o	     provided by a comprehensive outpatient rehabilitation facility.

                  Pursuant to 42 CFR § 410.155(b)(2), some services are exempt from
                  the limitation, such as services furnished to a hospital inpatient,
                  diagnostic services, and medical management services furnished to a
                  patient diagnosed with Alzheimer’s disease or a related disorder.
                  However, carriers must interpret the meaning of “mental health


OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                      i
                                                                                Report Template Update = 04-30-05_rev.12




E X E C U T I V E                       S U          M M A R Y


                   treatment” and “mental, psychoneurotic, and personality disorders” to
                   determine whether they should apply the limitation to specific claims.
                   Application of the Limitation by Carriers
                   The Centers for Medicare & Medicaid Services (CMS) contracts with
                   private companies, called “carriers,” to process and pay physicians’
                   and nonphysician practitioners’ Part B claims. CMS authorizes
                   carriers to process and pay claims submitted by providers in CMS-
                   defined geographic service areas. In most cases, an individual service
                   area is one State. However, some States (such as New York and
                   Missouri) have two service areas. While most carriers process and
                   pay claims for multiple service areas, each service area is represented
                   by only one carrier. In 2003, 19 carriers processed claims from
                   providers in the 57 service areas that encompassed all 50 States, the
                   District of Columbia, Puerto Rico, and the U.S. Virgin Islands.
                   Claims Processing
                   Physicians and other practitioners submit Medicare claims to their
                   respective carriers. Carriers are responsible for applying the limitation
                   via their automated claims processing systems. Carriers customize
                   their systems and apply the limitation according to their individual
                   payment policies. The application of the limitation does not affect
                   coverage. Instead, the limitation determines the proportion of expenses
                   that will be borne by a beneficiary.
                   Methodology
                   We used multiple methods to accomplish our objectives. To determine
                   the extent to which Medicare carriers consistently calculate beneficiary
                   copayments for mental health services and correctly calculate
                   copayments for beneficiaries diagnosed with Alzheimer’s disease and
                   related disorders, we surveyed (by mail, telephone, and e-mail) the
                   carriers and analyzed a 1-percent sample of claims from the Medicare
                   National Claims History for services rendered from 2001 through 2004.
                   In addition, we reviewed all relevant statutes, regulations, and CMS
                   guidance.


                   FINDINGS
                   Beneficiary copayments can be more than double for the same mental
                   health service in different service areas. Medicare beneficiaries can be
                   responsible for either 20 percent or 50 percent of the cost of exactly the
                   same mental health service, based on their geographic locations.



 OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                      ii
                                                                                Report Template Update = 04-30-05_rev.12




E X E C U T I V E                       S U          M M A R Y


                   Individual beneficiaries who move from one State to another may see
                   dramatic changes in their Medicare liability.
                   Because their payment policies are inconsistent, carriers do not
                   uniformly apply the outpatient mental health treatment limitation. Among
                   the 57 carrier service areas, we identified 9 different payment policies
                   for application of the limitation. Carriers’ policies vary regarding the
                   services that trigger the limitation and the psychiatric illnesses that
                   trigger the limitation.
                   Carriers overstated copayments for beneficiaries with Alzheimer’s
                   disease and related disorders by approximately $27 million during
                   a 4-year period. Both the regulations and CMS guidance clearly state
                   that medical management for patients diagnosed with Alzheimer’s or a
                   related disorder should not be subject to the limitation. Only
                   psychotherapy services are subject to the limitation for these patients.
                   However, from 2001 to 2004, carriers applied the limitation to medical
                   management services for approximately 488,000 beneficiaries with
                   Alzheimer’s and related disorders.


                   RECOMMENDATIONS
                   Due to carriers’ inconsistent policies regarding application of the
                   limitation, carriers do not uniformly calculate beneficiaries’ copayments.
                   In addition, some carriers are incorrectly applying the limitation to
                   services for beneficiaries with Alzheimer’s disease and related disorders.

                   To address this, CMS should:
                   o	     Issue new guidance to carriers regarding the outpatient mental
                          health treatment limitation and ensure that the limitation is
                          consistently applied among all carriers.
                   o	     Require its carriers to adjust the copayments for beneficiaries who
                          were overcharged.


                   AGENCY COMMENTS
                   CMS agreed to take steps to address our recommendations. CMS plans
                   to issue more precise guidance that will establish policy for application
                   of the outpatient mental health treatment limitation, create and post
                   educational materials to its Web site, and, to the extent operationally
                   feasible, require its carriers to reopen and adjust incorrectly processed
                   claims.


 OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                     iii
                                                                       Report Template Update = 04-30-05_rev.12




Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .................................... i



         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                    Unequal beneficiary copayments . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


                    Inconsistent carrier payment policies . . . . . . . . . . . . . . . . . . . . . . 13 


                    Overstated copayments for Alzheimer’s patients . . . . . . . . . . . . . 18 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                   Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

                    A: Glossary of Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                    B: Alzheimer’s-Related Disorders . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                    C: Procedure Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                    D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

                                                                               Report Template Update = 04-30-05_rev.12




Δ   I N T R O D U C T I O N                                               



                  OBJECTIVE
                  To determine the extent to which Medicare carriers:

                         1.	 consistently calculate beneficiary copayments for mental health
                             services, and

                         2.	 correctly calculate copayments for mental health services
                             rendered to beneficiaries diagnosed with Alzheimer’s disease or
                             related disorders.


                  BACKGROUND
                  Outpatient Mental Health Services and Psychiatric Disorders
                  Outpatient mental health services commonly rendered1 to Medicare
                  beneficiaries include:
                  o	     Psychotherapy: treatment for mental illness and behavioral
                         disturbances in which the clinician establishes a professional
                         contract with the patient, and through definitive therapeutic
                         communication, attempts to alleviate emotional disturbances,
                         reverse or change maladaptive patterns of behavior, and
                         encourage personality growth and development;2
                  o	     Psychiatric pharmacologic management: pharmacologic
                         management, including prescription, use, and review of
                         medication with no more than minimal medical psychotherapy;3
                         and
                  o	     Evaluation and management (E&M) services: office visits,
                         hospital visits, and consultations that typically involve at least
                         one of three key components – history, physical examination, and
                         medical decisionmaking. E&M services can vary in complexity.4
                  Psychiatric disorders that occur most frequently for Medicare
                  beneficiaries5 include:
                  o	     affective psychoses (e.g., major depressive disorder and bipolar
                         affective disorder);

                   1 Based on the Office of Inspector General (OIG) analysis of a 1-percent sample of

                  Medicare claims for 2003.
                       2 AMA, “Current Procedural Terminology, Professional Edition,” 2003.
                       3 Ibid.
                       4 Ibid.
                       5 Based on OIG analysis of a 1-percent sample of Medicare claims for 2003.




OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                     1
                                                                                 Report Template Update = 04-30-05_rev.12




I N T R O D        U C T            I O N

                    o	     senile psychotic conditions;

                    o	     schizophrenic disorders; and

                    o	     neurotic disorders (e.g., neurotic depression and adjustment
                           reaction).

                    These disorders are described in more detail in the American Medical
                    Association’s (AMA) “International Classification of Diseases,
                    9th Revision” (ICD-9) and the American Psychiatric Association’s
                    (APA) “Diagnostic Statistical Manual, Third Edition – Revised”
                    (DSM-III-R).

                    Practitioners who render mental health services to Medicare
                    beneficiaries include psychiatrists, clinical psychologists, licensed
                    clinical social workers, nurse practitioners, clinical nurse specialists,
                    and physician assistants.
                    The Outpatient Mental Health Treatment Limitation
                    Medicare’s Supplementary Medical Insurance (Part B) covers
                    physicians’ services, outpatient care, and some other services not
                    covered by Medicare’s Hospital Insurance (Part A). In general,
                    beneficiaries are responsible for copayments of 20 percent of the
                    approved amount for most Part B services. Outpatient mental health
                    services are covered under Part B. However, Federal law limits
                    Medicare payments to 62.5 percent of the expenses (Medicare approved
                    amount) for mental health services.6 Specifically, the law limits
                    payments for services in connection with the treatment of “mental,
                    psychoneurotic, and personality disorders.” For these services,
                    beneficiaries face greater cost-sharing liability.
                    Federal statute and regulations. The implementing regulations for
                    section 1833(c) of the Social Security Act (the Act) are called the
                    “outpatient mental health treatment limitation” (the limitation).7
                    Pursuant to 42 CFR § 410.155(b), services subject to the limitation
                    include those “furnished in connection with the treatment of a mental,
                    psychoneurotic, or personality disorder (that is, any condition
                    identified by a diagnosis code within the range of 290 through 319)”
                    and either:
                    o	     furnished by physicians and other practitioners, whether
                           furnished directly or as incident to those practitioners’ services, or

                         6 Section 1833(c) of the Act (42 U.S.C. 1395I).
                         7 42 CFR § 410.155.




 OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                       2
                                                                                 Report Template Update = 04-30-05_rev.12




I N T R O D        U C T            I O N

                    o	     provided by a comprehensive outpatient rehabilitation facility.

                    Pursuant to section 1833(c) of the Act, services not subject to the
                    limitation include the following:
                    o	     services furnished to a hospital inpatient;

                    o	     brief office visits for the sole purpose of monitoring or changing
                           drug prescriptions used in the treatment of mental,
                           psychoneurotic, or personality disorders; and
                    o	     partial hospitalization services that are not directly provided by a
                           physician.

                    In addition, the regulations at 42 CFR § 410.155(b)(2) prohibit
                    application of the limitation to:
                    o	     diagnostic services, such as psychological testing, that are
                           performed to establish a diagnosis; and
                    o	     medical management, as opposed to psychotherapy, furnished to a
                           patient diagnosed with Alzheimer's disease or a related disorder.

                    The regulation contains examples of how the limitation affects
                    provider reimbursement and beneficiary copayments. The example
                    below from 42 CFR § 410.155(c) illustrates why the limitation results
                    in a 50-percent beneficiary copayment for mental health services:
                           A clinical psychologist submitted a claim for $200 for outpatient
                           treatment of a beneficiary’s mental disorder. The Medicare approved
                           amount was $180. Since clinical psychologists must accept assignment,
                           the beneficiary is not liable for the $20 in excess charges. The
                           beneficiary previously satisfied the $100 annual Part B deductible. The
                           limitation reduces the amount of incurred expenses to 62 ½ percent of
                           the approved amount. After subtracting any unmet deductible, Medicare
                           pays 80 percent of the remaining incurred expenses. Medicare payment
                           and beneficiary liability are computed as follows:

                               1. Actual charges                                                             $200.00

                               2. Medicare approved amount                                                    180.00

                               3. Medicare incurred expenses (0.625 x line 2)                                 112.50

                               4. Unmet deductible                                                              0.00

                               5. Remainder after subtracting deductible (line 3 minus line 4)                112.50

                               6. Medicare payment (0.80 x line 5)                                             90.00

                               7. Beneficiary liability (line 2 minus line 6)                                  90.00
                               Source: 42 CFR § 410.155(c).



 OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                       3
                                                                                    Report Template Update = 04-30-05_rev.12




 I N T R O D          U C T            I O N

                       The application of the limitation in the example on the preceding page
                       results in a beneficiary liability of 50 percent of the Medicare approved
                       amount for the service. While Medicare approved the entire physician
                       fee schedule amount for the service, it limited the incurred expenses to
                       62.5 percent and reimbursed the provider 80 percent of that limited
                       amount. The provider collected the remaining reimbursement from the
                       beneficiary.

                       For other Part B services, beneficiaries are typically liable for
                       20 percent of the Medicare approved amount, as opposed to 50 percent
                       under the limitation. Using the example provided in
                       42 CFR § 410.155(c) (above), Table 1 compares the Medicare payment
                       calculation for mental health services (limitation is applied) and medical
                       services (limitation is not applied).


          Table 1       Medicare Payment Calculation:
    Comparison of
                        Mental Health vs. Other Medical Services
Medicare Payment
     Calculations:
                                                                                         Mental Health          Other Medical
 By law, Medicare
                                                                                             Services                Services
    incurs less for
    mental health       1. Actual charges                                                       $200.00                $200.00
services, resulting
          in higher
                        2. Medicare approved amount                                             $180.00                $180.00
   copayments for
    beneficiaries.
                                                                                                $112.50                $180.00
                        3. Medicare incurred expense
                                                                                           (62.5 percent           (100 percent
                                                                                    of approved amount)    of approved amount)

                        4. Unmet deductible                                                        0.00                   0.00

                        5. Remainder after subtracting deductible
                                                                                                $112.50                $180.00
                           (line 3 minus line 4)

                        6. Medicare payment
                                                                                                $ 90.00                $144.00
                           (0.80 x line 5)

                        7. Beneficiary liability
                                                                                                 $90.00                 $36.00
                           (line 2 minus line 6)

                        8. Beneficiary liability as percent of approved                      50 percent             20 percent

                      Source: Office of Inspector General analysis of Medicare payment policies, 2005.




    OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                             4
                                                                                 Report Template Update = 04-30-05_rev.12




I N T R O D        U C T            I O N

                    CMS guidance. The Centers for Medicare & Medicaid Services (CMS)
                    issues binding guidance to its carriers in the form of claims processing
                    manuals and memoranda. CMS has issued guidance on the limitation
                    in the Medicare Carriers Manual and its Internet Only Manuals.8 In
                    1995, at least three CMS regional offices also issued to their respective
                    carriers memoranda that contained additional clarification on the
                    application of the limitation.

                    CMS guidance9 interprets and implements regulations10 concerning the
                    limitation by identifying (1) the disorders that are subject to the
                    limitation, (2) the services that are subject to the limitation, and (3) the
                    services that are not subject to the limitation. However, the guidance
                    lacks the specificity necessary for carriers to apply the limitation to
                    claims without additional interpretation of the regulations. In
                    particular, the guidance lacks specificity in two areas. One is the
                    definition of “mental, psychoneurotic, and personality disorders.” The
                    other is the definition of “mental health treatment.”

                    CMS guidance defines the phrase “mental, psychoneurotic, and
                    personality disorders” as the specific psychiatric conditions described in
                    APA’s DSM-III-R.11 The guidance also provides that, if the primary
                    diagnosis is the “same as or equivalent to a condition described in the
                    APA’s DSM-III-R,” the service is subject to the limitation. CMS
                    guidance does not mention the range of diagnosis codes that are
                    specified in the regulation, i.e., 290 through 319, nor does it mention the
                    ICD-9. The ICD-9 lists diagnosis codes for all diseases and conditions,
                    including mental illness, and contains 192 diagnosis codes for mental
                    illness that are not in the DSM-III-R.

                    To identify services that are subject to the limitation, CMS guidance
                    instructs carriers to apply the limitation to “professional services that
                    represent mental health treatment.”12 However, the guidance does not
                    list the specific procedure codes (i.e., AMA’s “Current Procedural



                       8 “Medicare General Information, Eligibility, and Entitlement Manual,” Publication

                    100-1, Chapter 3, sections 30.0 through 30.3 and “Medicare Claims Processing Manual,”
                    Publication 100-4, Chapter 12, sections 210 and 210.1.
                       9 “Medicare Claims Processing Manual,” Publication 100-4, Chapter 12, section 210.1. 

                       10 42 CFR § 410.155. 

                      11 “Medicare Claims Processing Manual,” Publication 100-4, Chapter 12, section 

                    210.1(B).
                      12 “Medicare Claims Processing Manual,” Publication 100-4, Chapter 12, section
                    210.1(C).



 OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                       5
                                                                                 Report Template Update = 04-30-05_rev.12




I N T R O D        U C T            I O N

                    Terminology” (CPT codes)) that qualify as mental health treatment
                    services.

                    To identify services that are not subject to the limitation, CMS provides
                    additional guidance for the following exceptions: diagnosis of
                    Alzheimer’s disease or related disorders, brief office visits for
                    monitoring or changing drug prescriptions, diagnostic services, and
                    partial hospitalization services not directly provided by a physician.13
                    CMS guidance on exceptions relevant to this report are discussed in
                    more detail later.
                    Application of the Limitation by Carriers
                    Section 1842 of the Act authorizes CMS to contract with private
                    companies, called “carriers,” to process and pay physician and
                    nonphysician practitioner Part B claims within a given service area. In
                    most cases, a carrier service area is a single State; however, some States
                    (such as New York and Missouri) have two service areas. Most carriers
                    process and pay claims for multiple service areas. In 2003, 19 carriers
                    processed claims from providers in the 57 service areas that
                    encompassed all 50 States, the District of Columbia, Puerto Rico, and
                    the U.S. Virgin Islands.

                    Unlike Local Coverage Determinations (LCD), application of the
                    limitation is a payment decision, not a coverage decision. The LCD is a
                    decision by a carrier to cover a particular item or service. In contrast,
                    the application of the limitation does not affect coverage. Instead, the
                    limitation determines the proportion of expenses that will be borne by a
                    beneficiary. Carriers are required by law to apply the limitation;
                    however, they make decisions on its application to specific services on
                    the basis of national payment policy in conjunction with their
                    interpretation of that policy (CMS guidance and memoranda).
                    Claims Processing
                    Physicians and other practitioners submit Medicare claims to their
                    respective carriers. They submit claims electronically in a uniform
                    format that includes, among other things:
                    o      demographic information about the patient,

                    o      the patient’s Medicare identification number,




                      13 “Medicare Claims Processing Manual,” Publication 100-4, Chapter 12, section
                    210.1(D).



 OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                       6
                                                                                 Report Template Update = 04-30-05_rev.12




I N T R O D        U C T            I O N

                    o      codes used to describe the services rendered,14 and

                    o      codes used to describe the patient’s diagnosis.15

                    Using their automated claims processing systems, carriers determine if
                    Medicare covers the services billed by physicians and other
                    practitioners. If the services are covered, prior to paying the claim,
                    carriers transmit the claim information to one of nine “host sites” for the
                    Common Working File (CWF). The CWF system reviews the claim and
                    beneficiary information and authorizes payment, based on the payment
                    rules. However, carriers are solely responsible for applying the
                    limitation via their automated claims processing systems. Carriers
                    customize their systems and apply the limitation according to their
                    individual payment policies, which, as previously mentioned, are a
                    combination of national payment policy and carriers’ interpretations of
                    national payment policy.
                    Companion Report
                    This report is the first of two reports on Medicare Part B mental health
                    services rendered in 2003. The second report will describe the results of
                    a medical review of a representative sample of Medicare claims for
                    mental health services rendered in 2003.


                    METHODOLOGY
                    Because CMS has not provided the carriers with comprehensive
                    guidance on the limitation, we focused on how consistently the carriers
                    calculate beneficiary copayments. However, since carriers can
                    determine whether the limitation applies to services rendered to
                    beneficiaries diagnosed with Alzheimer’s and related disorders based on
                    the plain language of the CMS guidance, we determined the extent to
                    which carriers correctly calculate copayments for these beneficiaries.

                    We used multiple methods to accomplish our objective. To determine
                    the extent to which carriers consistently calculate beneficiary
                    copayments for mental health services, we surveyed each carrier and
                    analyzed a 1-percent sample of claims from the Medicare National
                    Claims History for claims received in calendar year 2003. To determine
                    the extent to which carriers are correctly calculating copayments for
                    beneficiaries diagnosed with Alzheimer’s disease or related disorders,


                        14 Procedure codes are from AMA’s “Current Procedural Terminology.”
                        15 Diagnosis codes are from AMA’s ICD-9.




 OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                       7
                                                                                 Report Template Update = 04-30-05_rev.12




I N T R O D        U C T            I O N

                    we analyzed a 1-percent sample of claims from the Medicare National
                    Claims History for claims received in calendar years 2001 through 2004.
                    In addition, we reviewed all relevant statutes, regulations, and CMS
                    guidance.
                    Carrier Survey
                    We sent a written survey to 18 of the 19 carriers that had paid claims in
                    calendar year 2003. All 18 carriers responded to our survey. The
                    carrier that processed claims for Rhode Island in 2003 was no longer a
                    Medicare contractor at the time we conducted our survey (October 2004)
                    and was, therefore, not included in our survey. The carriers that
                    responded to our survey represented at least 1 of all 57 Part B service
                    areas in 2003, except Rhode Island.

                    We asked the carriers to provide detailed explanations of their payment
                    policies for applying the limitation to the claims they paid for services
                    rendered in 2003. After receiving their completed surveys, we contacted
                    many of the carriers by telephone, fax, and/or e-mail to clarify their
                    survey responses.
                    2003 Medicare Claims Data and Carrier Payment Policy Analysis
                    We analyzed a 1-percent sample of claims from the Medicare National
                    Claims History for claims received in calendar year 2003. We analyzed
                    the claims to (1) verify that carriers followed their stated payment
                    policies for application of the limitation in 2003 and (2) calculate
                    Medicare reimbursements and beneficiary liabilities for claims paid
                    under the limitation.

                    We analyzed the carriers’ payment policies in four categories:

                    1.	 Psychiatric pharmacologic management services. See page 1 for
                        the definition.

                    2.	 E&M services. See page 1 for the definition.

                    3.	 Diagnosis lists used to trigger the limitation. As mentioned on
                        page 5, there are two professionally recognized sources for
                        diagnosis codes for mental illnesses: (1) AMA’s ICD-9 and
                        (2) APA’s DSM-III-R. The ICD-9 is the international standard for
                        a comprehensive listing of all diseases and conditions, and is not
                        limited to mental illnesses. The DSM-III-R is the standard
                        diagnostic manual used by mental health practitioners, and is
                        limited to mental illnesses. In addition to listing the diagnosis
                        codes, it contains other information, such as diagnostic criteria.



 OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                       8
                                                                                    Report Template Update = 04-30-05_rev.12




I N T R O D           U C T            I O N

                       4.	 Services to treat Alzheimer’s and related disorders. Federal
                           regulations16 prohibit application of the limitation to “medical
                           management, as opposed to psychotherapy, furnished to a patient
                           diagnosed with Alzheimer’s disease or a related disorder.”
                           Alzheimer’s-related disorders comprise 12 different diseases, as
                           defined by the DSM-III-R. See appendix B for a complete listing
                           of the diseases.
                       Policy verification analysis. We verified that the carriers were following
                       their payment policies in each of these four categories of claims by
                       analyzing their paid claims in the 2003 1-percent sample. Based on the
                       results of our analysis, we included a service area in our findings if at
                       least 99.5 percent of the paid claims in that service area were processed
                       in accordance with the carrier’s payment policies. For example, if a
                       carrier stated that it applied the limitation to E&M services in a
                       particular service area, we included that service area in our findings if
                       at least 99.5 percent of paid claims showed that the carrier had followed
                       its stated payment policy. If fewer than 99.5 percent of the service
                       area’s claims were paid in accordance with the payment policy, we
                       excluded that service area from our findings for that category of claims
                       only (E&M services in the example). The service area could still be
                       included in our findings related to the three other categories if the
                       99.5 percent-criterion were met for those particular services. See
                       Table 2 for details about the carriers and service areas that we
                       excluded.


          Table 2          Carriers and Service Areas Excluded from this Report’s Analyses
Excluded Carriers
                                                                                                     Service              Percent
and Service Areas:        Categories for Application of the                         Carriers*          Areas              Service
   Carriers’ stated       Limitation                                                  (n=19)          (n=57)               Areas
 payment policies         Psychiatric pharmacologic management
                                                                                           3                 4                  7%
 for specific claim       services
 categories could         Evaluation and management services                               8                11                 19%
 not be verified in
 2003 paid claims         Diagnosis lists used to trigger the
                                                                                          10                14                 25%
                          limitation
              data.
                          Services to treat Alzheimer’s and related
                                                                                           5                 7                 12%
                          dementia disorders
                       *This column indicates that at least one service area for the carrier was excluded, not that the entire carrier
                       was excluded from our analysis.
                       Source: Office of Inspector General analysis of a 1-percent sample of calendar year 2003 Medicare claims,
                       2005.




                          16 42 CFR § 410.155(b)(2)(v).




   OEI-09-04-00221     C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                         9
                                                                                 Report Template Update = 04-30-05_rev.12




I N T R O D        U C T            I O N

                    The carriers in Table 2 could not accurately describe their payment
                    policies for applying the limitation. Determining why the carriers could
                    not accurately describe their payment policies was outside of the scope
                    of this study. However, a few carriers provided information that
                    suggests they do not keep accurate written records of their limitation
                    policies and are unable to query their payment systems to obtain past
                    payment policies (e.g., the limitation policy in 2003).

                    We also excluded from our verification analysis all claims for which the
                    primary payer was not Medicare. These claims represented less than
                    1 percent of the claims in our sample.

                    We analyzed carriers’ payment policies that were in effect on
                    December 31, 2003. For most carriers and most service areas, the
                    limitation policies that were in effect on December 31, 2003, represented
                    the policies that were in effect throughout the calendar year.

                    We asked the carriers if they changed their limitation policies for claims
                    that were processed in 2004 and 2005. Eight carriers had added specific
                    procedure codes to the list of services that were subject to the limitation
                    and/or had added specific diagnosis codes to trigger the limitation. One
                    carrier changed its limitation policies from 2003 to 2004 because of a
                    change in its claims processing system; however, the carrier was unable
                    to explain how its policies had changed.
                    Medicare reimbursement and beneficiary liability estimates
                    We analyzed a 1-percent sample of paid claims for services rendered in
                    2003 to determine actual Medicare reimbursement and beneficiary
                    liability for services subject to the limitation. During claims processing,
                    carriers code individual claims to indicate whether the limitation has
                    been applied. In comparing the copayments among beneficiaries in
                    different States, we factored in the difference in fee schedule amounts to
                    make comparisons of beneficiary liability stemming from the limitation.
                    We relied on these codes to identify the individual claims for cost
                    estimates.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.

                    See appendix A for a glossary of the terms used in this report.




 OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                      10
                                                                                          Report Template Update = 04-30-05_rev.12




       Δ       F I N D I N G S 

                                                                 Beneficiaries’ financial liability for
Beneficiary copayments can be more than double for
                                                                 Medicare mental health services vary
                    the same mental health service
                                                                 based on the geographic location in
                          in different service areas             which they receive the services. In
                                                                 one service area, the beneficiary
                             copayment might be 20 percent, while in another the copayment could
                             be 50 percent for the same service. For example, approximately
                             7,600 Medicare beneficiaries received psychiatric pharmacologic
                             management services on December 31, 2003. Carriers applied the
                             limitation to the services for approximately 83 percent of these
                             beneficiaries. For two of these beneficiaries, one in Florida and the
                             other in Utah, Medicare approved approximately $53 and $46 for the
                             services, respectively. Because carriers that serve Florida and Utah
                             have different payment policies regarding the limitation, the beneficiary
                             in Florida was responsible for approximately $11, while the beneficiary
                             in Utah was responsible for approximately $23. This is one example
                             among thousands in which beneficiaries pay significantly different
                             amounts for the same Medicare-covered mental health services. In
                             2003, Medicare approved approximately $1.2 billion for claims for which
                             carriers applied the limitation. Beneficiaries were liable for
                             $662 million of that amount.
                             Beneficiaries who move from one State to another may see dramatic
                             changes in their Medicare liability for the same Medicare-covered services
                             To illustrate the effect the carriers’ inconsistent limitation policies can
                             have on Medicare beneficiaries, the scenarios depicted in
                             Figure 1 include two real Medicare beneficiaries. In each scenario, the
                             beneficiaries hypothetically moved from their home State to a State
                             served by a carrier with a different limitation policy. The number of
                             services reported in figure 1 were the actual number of services these
                             beneficiaries received in their home States in 2003.17


                             o	     Scenario 1: Beneficiary A received 50 E&M services in California
                                    and was liable for 50 percent copayments for all Medicare mental
                                    health services. The carrier applied the limitation to services that
                                    appear in the psychiatric section of the AMA’s “Current
                                    Procedural Terminology,” as well as E&M services where a mental
                                    disorder appeared on the claims. If the beneficiary moved to Ohio



                                  17 Approximately 3 percent of beneficiaries in 2003 received 50 or more E&M services.




           OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                               11
                                                                                                           Report Template Update = 04-30-05_rev.12




            F
 I N D I N G                  S

                                                  and received exactly the same services, the beneficiary would be
                                                  liable for approximately $1,386 less in copayments.18
                                           o      Scenario 2: Beneficiary B received 47 E&M services in Ohio,
                                                  avoided the limitation for these services, and was liable for the
                                                  standard 20 percent copayment. The local carrier does not apply
                                                  the limitation to E&M services for patients with a mental disorder
                                                  in that service area. If the beneficiary moved to California, the
                                                  beneficiary’s liability for copayments for the same services would
                                                  increase by approximately $468.19




    Figure 1
Beneficiaries                           If Beneficiary A moves to Ohio and receives the
 Who Move to                            same services, the beneficiary will be liable for
      Another                           $1,386 less.
Service Area:
 Hypothetical
 movement of
                                                                                 If Beneficiary B moves to California and
     two real
                                                                                 receives same services, the beneficiary
    Medicare                                                                     will be liable for $468 more.
 beneficiaries
to States with
     different
    limitation
     policies.            Beneficiary A: 2003 Medicare mental health                                     Beneficiary B: 2003 Medicare mental health
                          services received in the State of California.                                  services received in the State of Ohio.

                          Diagnosis: Paranoid Schizophrenia                                              Diagnosis: Opioid Dependence

                          50 E&M Services                                                                47 E&M Services




                    Note: While the two beneficiaries received a similar number of E&M services, beneficiary A received services of a higher level of complexity,
                    and therefore the fee schedule amounts were higher than the services for beneficiary B.

                    Source: Office of Inspector General analysis of 1-percent sample of calendar year 2003 Medicare claims, 2005.




                                             18 Of this total, $1,157.25 of the difference is attributed to the variance in the outpatient
                                           mental health treatment limitation policy, and $229.00 is attributed to the change in fee
                                           schedule amounts. The total approved amount for this beneficiary’s services in California
                                           was $4,315.
                                               19 Of this total, $432.86 of the difference is attributed to the variance in the outpatient

                                           mental health treatment limitation policy, and $36.58 is attributed to the change in fee
                                           schedule amounts. The total approved amount for this beneficiary’s services in Ohio was
                                           $1,978.



                 OEI-09-04-00221           C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                                      12
                                                                                        Report Template Update = 04-30-05_rev.12




     F   I N D I N G        S           



Because their payment policies are inconsistent,              Among the 57 service areas, we
                                                              identified 9 distinctive payment
                 carriers do not uniformly apply
                                                              policies for application of the
the outpatient mental health treatment limitation
                                                              limitation, based on the 4 categories
                                                              listed below. In some cases, the
                           payment policies vary within the carriers themselves. Among the
                           13 carriers that have multiple service areas, at least 6 carriers have
                           more than 1 distinctive payment policy in effect, which reflects
                           variations within the carriers across service areas.
                           Carriers’ payment policies vary in four categories
                           Significant Medicare payment policy variance among the carriers occurs
                           primarily in four categories:

                           1. psychiatric pharmacologic management services,
                           2. E&M services,
                           3. diagnosis lists20 used to trigger the limitation, and
                           4. services to treat Alzheimer’s disease and related disorders.

                           These four categories include most Medicare Part B claims for mental
                           health services. Among all claims in 2003 for mental health services
                           and/or beneficiaries with a psychiatric diagnosis, these four categories
                           apply to 58 percent of the claims and 90 percent of the beneficiaries.
                           The remaining 42 percent of the claims were for psychotherapy services,
                           for which carriers were mostly consistent in applying the limitation.

                           For the first three categories, CMS guidance lacks the specificity
                           necessary for carriers to apply the limitation to claims without
                           additional interpretation. Carriers must interpret the meaning of
                           “mental health treatment” and “mental, psychoneurotic, and personality
                           disorders” in order to determine whether the limitation should apply to
                           claims. For the fourth category, CMS guidance is unequivocal.
                           Nevertheless, carriers still vary in their application of the limitation to
                           services for beneficiaries with Alzheimer’s and related disorders.




                              20 AMA’s ICD-9 or APA’s DSM-III-R.




         OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                             13
                                                                                        Report Template Update = 04-30-05_rev.12




F    I N D I N G        S

                       Psychiatric pharmacologic management is not always subject to the
                       limitation
                       In 86 percent of the service areas, carriers subject psychiatric
                       pharmacologic management to the limitation. However, in approximately
                       one-fourth of those service areas, psychiatric pharmacologic management is
                       subject to the limitation only if the patient has a diagnosis recognized by
                       the carrier to trigger the limitation (e.g., a mental disorder according to the
                       ICD-9 or DSM-III-R). In two-thirds of the service areas, psychiatric
                       pharmacologic management is subject to the limitation regardless of
                       diagnosis. See Table 3 for details on how carriers’ payment policies differ.

           Table 3        Psychiatric Pharmacologic Management – CPT 90862
        Psychiatric
                                                                                                                                        Percent
    Pharmacologic        Application of the Limitation                                       Carriers*     Service Areas          Service Areas
      Management:
                         Never                                                                      2                     4                    7%
    Carriers did not
 always apply the        Always                                                                    13                    36                   63%
limitation to these      Based on Diagnosis                                                         6                    13                   23%
    claims in 2003.
                         Unknown – carriers’ stated payment policies
                                                                                                    3                     4                    7%
                         could not be verified in claims data

                                                                                    Total          24                    57                 100%
                       *There were 19 carriers in 2003; this column totals 24 because 5 carriers use different policies among their service areas.
                       Source: Office of Inspector General analysis of carriers’ payment policies, 2005.

                       AMA defines psychiatric pharmacologic management (CPT 90862) as a
                       psychiatric service consisting of “pharmacologic management, including
                       prescription, use, and review of medication with no more than minimal
                       medical psychotherapy.” AMA’s definition does not explicitly indicate
                       whether psychiatric pharmacologic management is a therapeutic
                       (treatment) service only, as opposed to a therapeutic service with
                       diagnostic and evaluative features. CMS guidance21 exempts “tests and
                       evaluations performed to establish or confirm the patient’s diagnosis”
                       from the limitation. Moreover, CMS guidance provides that diagnostic
                       services should take more than one visit only in “rare cases,” and that,
                       in those rare cases, carriers should “request documentation to justify
                       the reason for more than one diagnostic visit.”
                       Carriers inconsistently apply the limitation to E&M services
                       E&M services are sometimes subject to the limitation in at least
                       72 percent of the service areas. In at least 9 percent of the service areas,
                       E&M services will never trigger the limitation. See Table 4 for details.


                         21 “Medicare Claims Processing Manual,” Publication 100-4, Chapter 12,
                       section 210.1(D)(3).



    OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                   14
                                                                                              Report Template Update = 04-30-05_rev.12




F   I N D I N G           S           




        Table 4          E&M Services
 Evaluation and
                                                                                                                  Service     Percent Service
    Management          Application of the Limitation                                            Carriers*         Areas               Areas
       Services:
Carriers in most        Never                                                                           3               5                     9%
 States applied
the limitation in       Based on Diagnosis                                                             13              41                    72%
            2003.
                        Unknown – carriers’ stated payment policies
                                                                                                        8              11                    19%
                        could not be verified in claims data


                                                                                      Total            24              57                  100%

                      *There were 19 carriers in 2003; this column totals 24 because 5 carriers use different policies among their service areas.
                      Source: Office of Inspector General analysis of carriers’ payment policies, 2005.


                         Further, carriers that apply the limitation based on diagnosis may use
                         different lists of diagnoses to trigger the limitation for E&M services. The
                         diagnosis lists that carriers use to trigger the limitation represent the
                         most complex aspect of the limitation, and accordingly, result in
                         significant inconsistency among the carriers and the service areas. All
                         carriers that subject E&M services to the limitation do so based on the
                         patient’s diagnosis, which appears on the claim. Each carrier that applies
                         the limitation to E&M services uses a list of diagnoses coded into their
                         claims payment systems to trigger the limitation. Typically, a carrier will
                         use one list of diagnoses to “include” E&M services as subject to the
                         limitation. At least one carrier uses another list of diagnoses to “exclude”
                         E&M services from the limitation. Among the carriers, and even within
                         some carriers, these lists vary. See Table 5 for details.




    OEI-09-04-00221      C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                     15
                                                                                              Report Template Update = 04-30-05_rev.12




 F    I N D I N G          S           



             Table 5         DSM-III-R and Non-DSM-III-R Psychiatric Diagnoses Used to Apply the
Diagnostic Triggers
                             Limitation to E&M Services in 2003
                 Vary:
       Carriers’ used
                            Application of the Limitation to E&M                                                  Service       Percent Service
     different lists of     Services                                                             Carriers*         Areas                Areas**
        diagnoses to
           trigger the      E&Ms are never subject to the limitation                                    3               5                       9%
 limitation for E&M
 claims received in         DSM-III-R Included
                2003.          Only DSM-III-R diagnoses trigger the                                     4              12                     21%
                               limitation


                            DSM-III-R and non-DSM-III-R Included
                               Both DSM-III-R and non-DSM-III-R                                        10              25                     44%
                               diagnoses trigger the limitation



                            Non-DSM-III-R Excluded
                                Non-DSM-III-R diagnoses prevent the                                     1               1                       2%
                                application of the limitation to any claim


                            Unknown
                                Carriers’ stated payment policies could                                10              14                     25%
                                not be verified in claims data


                                                                              Overall Total            28              57                    101%

                          *There were 19 carriers in 2003; this column totals 28 because 9 carriers use different policies among their service areas.

                          **The “percent of service areas” column equals 101 percent due to rounding. 

                          Source: Office of Inspector General analysis of carriers’ payment policies, 2005.



                          Carriers’ diagnosis lists are not consistent
                          The differences in carriers’ diagnosis lists can be explained, at least in
                          part, by the source(s) that carriers use to develop them. The ICD-9 and
                          DSM-III-R do not contain the same diagnoses. In its “mental disorders”
                          sections, the ICD-9 contains 192 diagnoses22 not found in the
                          DSM-III-R. As shown in Table 5, carriers covering 12 service areas use
                          only DSM-III-R diagnoses, and therefore, none of these 192 diagnoses
                          listed only in the ICD-9 will trigger the limitation. In contrast, carriers
                          covering 25 service areas use both DSM-III-R and some of these
                          192 non-DSM-III-R diagnoses to trigger the limitation. Many of the
                          192 diagnoses excluded from the DSM-III-R are subcategories of
                          diseases, specifying, for example, a recurrent episode or chronic
                          condition. For example, in service areas in which carriers rely solely on

                            22 In 1995, at least three CMS regional offices issued to their respective carriers
                          memoranda that listed each diagnosis code as found in the ICD-9 but not in the DSM-III-R.
                          We used these memoranda as our source for identifying the non-DSM-III diagnoses.



      OEI-09-04-00221     C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                       16
                                                                                   Report Template Update = 04-30-05_rev.12




F   I N D I N G        S

                      the DSM-III-R, diagnoses that providers code more specifically
                      (e.g., schizo-affective type, chronic, code 295.72) will not trigger the
                      limitation while diagnoses coded more broadly (e.g., schizo-affective
                      type, unspecified, code 295.70) will trigger the limitation.

                      The ICD-9 and DSM-III-R are not fully compatible, and regulations and
                      CMS guidance do not specify how carriers should reconcile the
                      differences to consistently apply the limitation. The most recent CMS
                      guidance states that, for purposes of applying the limitation, a mental
                      disorder is “. . . defined as the specific psychiatric condition described in
                      the American Psychiatric Association’s “Diagnostic and Statistical
                      Manual of Mental Disorders, Third Edition – Revised.”23 However, the
                      regulations state, without mentioning the DSM-III-R or the ICD-9, that
                      for the purpose of applying the limitation a mental disorder is “any
                      condition identified by a diagnosis code within the range of 290 through
                      319.”24 The range of codes in the “mental disorders” section of the
                      ICD-9 is “290 through 319,” while the range of codes in the DSM-III-R is
                      “290 through 319” in addition to other codes (e.g., 780.50, 780.54,
                      799.90). In addition, as mentioned earlier, there are 192 diagnoses in
                      the ICD-9’s mental disorders section that do not appear in the
                      DSM-III-R.
                      Carriers incorrectly subject E&M services for Alzheimer’s patients to the
                      limitation in approximately half of the service areas
                      Contrary to Federal regulations and CMS guidance,25 in approximately
                      one-half of the service areas, carriers subject E&M services to the
                      limitation for patients diagnosed with Alzheimer’s and related
                      disorders. Eleven carriers representing twenty-six service areas apply
                      the outpatient mental health treatment limitation to E&M services
                      rendered to Alzheimer’s and dementia patients. See Table 6 for details.
                      We could verify the payment policies of 11 of the 19 carriers that
                      reported that they apply the limitation to E&M services for beneficiaries
                      diagnosed with Alzheimer’s disease or related disorders.




                         23 “Medicare Claims Processing Manual,” Publication 100-4, Chapter 12, sections 210

                      and 210.1(B).
                         24 42 CFR § 410.155(b).
                         25 42 CFR § 410.155 and “Medicare General Information, Eligibility, and Entitlement
                      Manual,” Publication 100-1, Chapter 3, section 30.2.



    OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                        17
                                                                                                         Report Template Update = 04-30-05_rev.12



         F   I N D I N G           S        





                       Table 6            Diagnoses of Alzheimer’s Disease or Related Disorders as a Trigger for
                  Diagnoses of
                                          Applying the Limitation to E&M Services
                 Alzheimer’s or
             Related Disorders:
             Carriers’ payment                                                                                                 Service              Percent
                    policies for         Application of the Limitation to E&M Services                        Carriers*         Areas         Service Areas
             application of the          No
                                                                                                                     3                 5                    9%
             limitation to E&M                   regardless of diagnosis.
             claims received in          Yes
                          2003.                  but not to Alzheimer’s or dementia                                  7               19                   33%
                                                 disorders.
                                         Yes
                                                 to some but not all Alzheimer’s and                                11               26                   46%
                                                 dementia disorders.

                                         Yes
                                                                                                                     0                 0                    0%
                                                 to all Alzheimer’s and dementia disorders.

                                         Unknown
                                             Carriers’ stated payment policies could not                             5                 7                  12%
                                             be verified in claims data.

                                                                                              Overall Total         26               57                  100%
                                       *The total number of carriers in 2003 was 19, however, the carriers’ column totals 26 because 7 carriers use different
                                       policies among their service areas.
                                       Source: Office of Inspector General analysis of carriers’ payment policies, 2005.




                                                                     The regulations at
Carriers overstated copayments for beneficiaries with
                                                                     42 CFR § 410.155(b)(2)(v) prohibit
           Alzheimer’s disease and related disorders
                                                                     application of the limitation to “medical
  by approximately $27 million during a 4-year period                management, as opposed to
                                                                     psychotherapy, furnished to a patient
                                       diagnosed with Alzheimer’s disease or a related disorder.” In its
                                       guidance to carriers, CMS elaborates:
                                                When the primary diagnosis reported for a particular service is Alzheimer’s
                                                Disease (coded 331.0 in the “International Classification of Diseases, 9th
                                                Revision”) or Alzheimer’s or other disorders coded 290.XX in the APA’s
                                                DSM-III-R, carriers look to the nature of the service that has been
                                                rendered in determining whether it is subject to the limitation. Typically,
                                                treatment provided to a patient with a diagnosis of Alzheimer’s Disease or
                                                a related disorder represents medical management of the patient’s
                                                condition (rather than psychiatric treatment) and is not subject to the




                OEI-09-04-00221        C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                                   18
                                                                                                          Report Template Update = 04-30-05_rev.12




          F   II
 N D I N G              S

                                              limitation. However, when the primary treatment rendered to a patient
                                              with such a diagnosis is psychotherapy, it is subject to the limitation.26

                                       Both the regulations and CMS guidance clearly state that medical
                                       management for these patients should not be subject to the limitation.
                                       Only psychotherapy services are subject to the limitation for patients
                                       diagnosed with Alzheimer’s or a related disorder. The regulations do
                                       not specifically define an “Alzheimer’s related disorder;” however, CMS
                                       guidance identifies the specific range of diagnosis codes as “290.XX.”
                                       See appendix B for a complete list of diagnoses referenced in the
                                       guidance.

                                       CMS guidance on 42 CFR § 410.155 is consistent with the regulation.
                                       However, carriers are applying inappropriately the outpatient mental
                                       health treatment limitation to medical management services27 for
                                       beneficiaries diagnosed with Alzheimer’s disease or related disorders.
                                       Consequently, Medicare underpaid providers for these services. As a
                                       result, the beneficiaries were responsible for copayments in excess of
                                       what is mandated by Federal regulations. See Table 7 below for the
                                       total copayments miscalculated by year and Appendix C for the services
                                       in 2004 for which the copayments were miscalculated.


     Table 7          Incorrect Application of the Limitation for Patients with Alzheimer’s Disease
 Diagnoses of
                      or Related Disorders
Alzheimer’s or
      Related                                                                                                       Total           Total
                                                                                              Medicare       Beneficiary      Beneficiary        Medicare
    Disorders:
                      Year Services were                                                          Total          Liability       Liability        Under-
    Incorrect         Rendered                                   Beneficiaries                Approved      (by Carriers)       (Correct)        payment
application of
                            2001                                          158,000           $20,489,000      $10,245,000       $4,098,000      $6,147,000
the limitation
    for claims              2002                                          178,000           $22,587,000      $11,294,000       $4,517,000      $6,776,000
received 2001               2003                                          197,000           $27,503,000      $13,752,000       $5,501,000      $8,251,000
through 2004.
                            2004                                          146,000           $20,091,000      $10,046,000       $4,018,000      $6,027,000

                                              Total                       488,000           $90,671,000      $45,336,000      $18,134,000    $27,201,000*
                    *This table represents projections from a 1-percent sample of Medicare claims. The projections are rounded to the nearest 1,000. 

                    The 95 percent confidence interval for the point estimate of $27,201,000, rounded to the nearest thousand is $26,213,000 to $28,190,000.


                    Source: Office of Inspector General analysis of 1-percent sample of calendar years 2001, 2002, 2003, and 2004 Medicare claims, 2005.





                                         26 “Medicare Claims Processing Manual,” Publication 100-4, Chapter 12,
                                       section 210.1(D)(1).
                                         27 These services include E&M and psychiatric pharmacologic management. See
                                       Appendix B for a complete list of the procedure codes in 2004.



              OEI-09-04-00221          C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                                 19
                                                                                   Report Template Update = 04-30-05_rev.12




F   I N D I N G        S
Δ       R E C O M M E N D A T I O N S                                                  





                      Due to carriers’ inconsistent policies regarding application of the
                      outpatient mental health treatment limitation, carriers do not
                      uniformly calculate beneficiaries’ copayments. In addition, some
                      carriers are incorrectly applying the limitation to services for
                      beneficiaries with Alzheimer’s disease and related disorders, resulting
                      in beneficiary overpayments.

                      To address this, CMS should:
                      Issue new guidance to carriers regarding the outpatient mental health
                      treatment limitation and ensure that the limitation is consistently applied
                      among all carriers
                      In the new guidance, CMS should instruct its carriers (using a
                      comprehensive list of specific CPT and ICD-9 codes) how the outpatient
                      mental health treatment limitation applies to services for:
                      o	         psychiatric pharmacologic management;

                      o	         evaluation and management;

                      o	         patients with diagnoses that appear in the ICD-9 list of
                                 psychiatric illness, but do not appear in the DSM-III-R;
                      o	         patients with diagnoses that appear in the DSM-III-R, but do
                                 not appear in the ICD-9; and
                      o	         patients diagnosed with Alzheimer’s disease and related
                                 disorders.

                      CMS should instruct its carriers that, pursuant to 42 CFR § 410.155
                      and the “Medicare General Information, Eligibility, and Entitlement
                      Manual,” Publication 100-1, Chapter 3, section 30.2, they should
                      discontinue applying the limitation to any services, except
                      psychotherapy, for patients with Alzheimer’s disease (diagnosis code
                      331.0) or related disorders (diagnosis codes 290.XX).
                      Require its carriers to adjust the copayments for beneficiaries who were
                      overcharged
                      CMS should instruct its carriers to identify claims for all
                      nonpsychotherapy services (e.g., E&M services and psychiatric
                      pharmacologic management) for patients with Alzheimer’s disease or
                      related disorders that were subjected to the limitation. Carriers should
                      reopen these claims in accordance with 42 CFR § 405.841 and



    OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                        20
                                                                                   Report Template Update = 04-30-05_rev.12




R   E C O        M M E N D A T                        I O N              S

                      determine if beneficiary copayments for the claims were calculated
                      improperly and need to be adjusted.


                      AGENCY COMMENTS
                      CMS agreed to take steps to address our recommendations. CMS
                      believes that providing more precise guidance is in the best interest of
                      the Medicare program. Accordingly, CMS plans to issue new guidance
                      to carriers to eliminate variations in the application of the mental
                      health treatment limitation. Additionally, CMS indicated that it would
                      create educational materials for the Medicare Learning Network
                      located on its Web site. Finally, to the extent operationally feasible,
                      CMS will require its carriers to reopen and adjust incorrectly processed
                      claims for patients with Alzheimer’s disease and related disorders. See
                      Appendix D for the complete CMS response.




    OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                        21
                                                                                   Report Template Update = 04-30-05_rev.12



Δ    A P P E N D I X                            A



                                                 Glossary of Terms


Approved amount         The amount Medicare allows as total reimbursement to the
                        provider for a service, including Medicare’s share and the
                        beneficiary’s copayment.

Beneficiary             The Medicare approved amount less the practitioner
liability               reimbursement. Usually 50 percent of the approved amount for
                        claims processed under the limitation.

Carrier                 A private insurance company working under contract with CMS
                        to process Part B Medicare claims. In 2003, there were
                        19 separate carriers.

Copayment               The amount the Medicare beneficiary is liable for any given
                        service. Typically, this amount is either 20 percent (medical
                        services) or 50 percent (mental health services) of the Medicare
                        approved amount.

CPT                     “A listing of descriptive terms and identifying codes for medical
                        services and procedures performed by physicians. The purpose of
                        the terminology is to provide a uniform language that will
                        accurately describe medical, surgical, and diagnostic services,
                        and will thereby provide an effective means for reliable
                        nationwide communication among physicians, patients, and third
                        parties.” (AMA, “Current Procedural Terminology, 2003,
                        Professional Edition,” Forward, p. vii.)

DSM-III-R               “The standard diagnostic tool used by mental health
                        professionals worldwide to promote reliable research, accurate
                        diagnosis, and thus appropriate treatment and patient care.
                        Each psychiatric disorder with its corresponding diagnostic code
                        is accompanied by a set of diagnostic criteria . . .” (American
                        Psychiatric Association, “Diagnostic and Statistical Manual of
                        Mental Disorders Third Edition Revised” (DSM-III-R), available
                        online at www.psychiatryonline.org. Accessed on November 15,
                        2005.)




    OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                        22
                                                                                             Report Template Update = 04-30-05_rev.12

A   P   P E N D           I X         A




E&M                                             Evaluation and Management services (CPT codes
                                                99201-99499). These include office visits, hospital
                                                visits, and consultations. E&M services typically
                                                involve three key components: history, physical
                                                examination, and medical decisionmaking. E&M
                                                services can vary in complexity and can be rendered by
                                                practitioners for patients with mental disorders.

ICD-9                                           Comprehensive source for disease classification. Diseases
                                                are classified with a 5-digit code, such as 295.00,
                                                schizophrenia, simple type, unspecified. (AMA’s
                                                “International Classification of Diseases, 9th Revision”
                                                (ICD-9).)

Limitation                                      The Medicare outpatient mental health treatment
                                                limitation. Statutory limitation of 62.5 percent of the
                                                Medicare Physician Fee Schedule amount on mental
                                                health services.

Mental disorder                                 Includes 281 diagnoses listed in the “International
                                                Classification of Diseases” (ICD-9) under Section 5,
                                                Mental Disorders (290-319).

Psychiatric Pharmacologic                       AMA defines psychiatric pharmacologic management
Management                                      (CPT 90862) as a psychiatric service consisting of
                                                “pharmacologic management, including prescription, use,
                                                and review of medication with no more than minimal
                                                medical psychotherapy.”

Psychiatric procedures                          Includes 42 procedures listed in AMA’s “Current
                                                Procedural Terminology (CPT) 2003,” under Medicine,
                                                Psychiatry.

Reimbursement                                   The amount Medicare pays to the practitioner for
(Medicare payment)                              services.

Service area                                    Includes 57 geographic areas represented by 1 of the
                                                19 carriers in 2003. Most service areas follow State lines;
                                                however, three States (e.g., California, Missouri. and New
                                                York) are divided into multiple service areas.




        OEI-09-04-00221         C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                  23
                                                                                        Report Template Update = 04-30-05_rev.12




Δ       A P P E N D I X                                   B            



      Table 8           Alzheimer’s-Related Disorders
Diagnosis Code
and Names for              ICD-9                                                        DSM-III-R
  Alzheimer’s-             Code          ICD-9 Diagnosis Name                              code     DSM-III-R Diagnosis Name
       Related                                                                                      Dementia of the Alzheimer's type,
                           290.0         Senile dementia uncomplicated                     290.00
    Disorders:                                                                                      senile onset, uncomplicated
 Complete list
                                                                                                    Dementia of the Alzheimer's type,
 based upon to            290.10         Presenile dementia uncomplicated                  290.10
                                                                                                    presenile onset, uncomplicated.
 CMS guidance
                                                                                                    Dementia of the Alzheimer's type,
    on 42 CFR             290.11         Presenile dementia with delirium                  290.11
                                                                                                    presenile onset, with delirium
    § 410.155.
                                         Presenile dementia with delusional                         Dementia of the Alzheimer's type,
                          290.12                                                           290.12
                                         features                                                   presenile onset, with delusions

                                         Presenile dementia with depressive                         Dementia of the Alzheimer's type,
                          290.13                                                           290.13
                                         features                                                   presenile onset, with depressed mood

                                         Senile dementia with delusional                            Dementia of the Alzheimer's type,
                          290.20                                                           290.20
                                         features                                                   senile onset, with delusions

                                         Senile dementia with depressive                            Dementia of the Alzheimer's type,
                          290.21                                                           290.21
                                         features                                                   senile onset, with depressed mood

                                                                                                    Dementia of the Alzheimer's type,
                           290.3         Senile dementia with delirium                     290.30
                                                                                                    senile onset, with delirium

                          290.40         Vascular dementia uncomplicated                   290.40   Multi-infarct dementia, uncomplicated

                          290.41         Vascular dementia with delirium                   290.41   Multi-infarct dementia, with delirium

                          290.42         Vascular dementia with delusions                  290.42   Multi-infarct dementia, with delusions

                                         Vascular dementia with depressed
                          290.43                                                           290.43   Multi-infarct dementia, with depression
                                         mood
                      Source: Office of Inspector General analysis of “The Medicare Claims Processing Manual Publication,” 100-4, Chapter 12,
                      section 210.1(D)(1); AMA, “International Classification of Diseases, 9th Revision” (ICD-9); and the American Psychiatric
                      Association, “Diagnostic and Statistical Manual of Mental Disorders Third Edition – Revised” (DSM-III-R), 2005.




    OEI-09-04-00221        C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                    24
                                                                                                  Report Template Update = 04-30-05_rev.12




  Δ         A P P E N D I X                                        C            



                      Incorrect Application of the Limitation for Patients with Alzheimer’s Disease
    Table 9           or Related Disorders (from a 1-Percent Sample of Cliams)
Diagnoses of                                                                                  Total              Total
 Alzheimer’s                                                                                  Beneficiary        Beneficiary
  or Related                                                                                  Liability          Liability          Medicare
  Disorders:          HCPCS                              Beneficiaries          Total Allowed (by Carriers)      (Correct)          Underpayment
   Incorrect                                 90862                      508            $78,127        $39,063         $15,625             $23,438
 application                                 90870                          1              $97            $49             $19                $29
       of the                                96151                          1              $24            $12                  $5             $7
limitation for                               99203                          3              $294          $147             $59                $88
      claims                                 99204                          6              $764          $382            $153               $229
 received in                                 99205                          1              $162           $81             $32                $49
        2004.                                99211                          1              $26            $13                  $5             $8
                                             99212                        34            $1,490           $745            $298               $447
                                             99213                      263            $17,638         $8,819          $3,528              $5,291
                                             99214                      184            $19,665         $9,833          $3,933              $5,900
                                             99215                        39            $5,206         $2,603          $1,041              $1,562
                                             99217                          1              $77            $38             $15                $23
                                             99218                          1              $73            $36             $15                $22
                                             99220                          1              $170           $85             $34                $51
                                             99231                          1              $96            $48             $19                $29
                                             99232                          1              $51            $26             $10                $15
                                             99243                          1              $84            $42             $17                $25
                                             99263                          1              $62            $31             $12                $18
                                             99282                          2              $58            $29             $12                $17
                                             99283                          4              $264          $132             $53                $79
                                             99284                          4              $509          $255            $102               $153
                                             99285                          3              $457          $228             $91               $137
                                             99301                          9              $908          $454            $182               $272
                                             99302                          9              $829          $415            $166               $249
                                             99303                        18            $2,205         $1,103            $441               $662
                                             99311                      187            $13,980         $6,990          $2,796              $4,194
                                             99312                      277            $38,412        $19,206          $7,682             $11,523
                                             99313                      106            $14,826         $7,413          $2,965              $4,448
                                             99315                          2              $120           $60             $24                $36
                                             99316                          1              $74            $37             $15                $22
                                             99322                          1              $51            $26             $10                $15
                                             99323                          1              $76            $38             $15                $23
                                             99331                          5              $283          $142             $57                $85
                                             99332                        15            $1,932           $966            $386               $579
                                             99333                          7              $414          $207             $83               $124
                                             99344                          1              $173           $86             $35                $52
                                             99348                          3              $346          $173             $69               $104
                                             99349                          3              $352          $176             $70               $106
                                             99350                          3              $538          $269            $108               $161
                      Total from
                      1 percent sample                                 1460          $200,912        $100,456         $40,182             $60,274

                      Total projected                             146,000           $20,091,000    $10,046,000      $4,018,000          $6,027,000


                      Source: Office of Inspector General analysis of 1-percent sample of calendar year 2004 Medicare claims, 2005.

    OEI-09-04-00221           C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                                              25
                                                                               Report Template Update = 04-30-05_rev.12




Δ   A P P E N D I X                              D            

                                             Agency Comments




OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                    26
                                                                                   Report Template Update = 04-30-05_rev.12




A   P   P E N D       I X           D            





    OEI-09-04-00221   C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                        27
                                                                                Report Template Update = 04-30-05_rev.12




Δ   A C K N O W L E D G M E N T S                                                    

                  This report was prepared under the direction of Paul A. Gottlober,
                  Regional Inspector General for Evaluation and Inspections in the San
                  Francisco regional office, and Deborah W. Harvey, Assistant Regional
                  Inspector General. Other principal Office of Evaluation and Inspections
                  staff who contributed include:

                  Steven Zerebecki, Project Leader
                  Robert Gibbons, Lead Analyst

                  Silvia Chin, Program Analyst

                  China Tantameng, Program Analyst

                  Thomas Purvis, Program Analyst

                  Doris Jackson, Program Specialist

                  Tricia Davis, Director, Medicare Branch




OEI-09-04-00221    C O PAY M E N T S   FOR   M E N TA L H E A LT H   SERVICES
                                                                                                                     28
